No. 20In The

Supreme Court Of The United States
————— ♦ —————
ROQUE “ROCKY” DE LA FUENTE
AND JAMES BERNARD MARTIN, JR.,
Petitioners,
v.
MINNESOTA SECRETARY OF STATE STEVE SIMON,
Respondent.
─────♦─────
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA
─────♦─────
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
─────♦─────
ERICK G. KAARDAL
Counsel of Record
MOHRMAN, KAARDAL,
& ERICKSON, P.A.
150 S. Fifth Street
Suite 3100
Minneapolis, MN 55402
Telephone: (612) 341-1074
Email: kaardal@mklaw.com

Counsel for Petitioners

(I)
TABLE OF CONTENTS
Appendix A: Order of the Minnesota Supreme Court
(January 9, 2020)..................................................1a
Appendix B: Opinion of the Minnesota Supreme
Court Opinion (March 18, 2020)..........................5a
Appendix C: Judgment of the Minnesota Supreme
Court (June 1, 2020)...........................................46a
Appendix D: Constitutional and Statutory
Provisions Involved............................................48a
Appendix E: Citation of Supplemental Authority of
the Petitioner (February 26, 2020)....................51a
Appendix F: Respondent's Affidavit Exhibit D,
Partial Reproduction (January 2, 2020)............53a
Appendix G: Petition Pursuant To Minnesota
Statutes § 204B.44, Partial Reproduction
(December 13, 2019)...........................................57a

1a
APPENDIX A: ORDER OF THE MINNESOTA SUPREME
COURT (JANUARY 9, 2020)
————— ♦ —————
State Of Minnesota
In Supreme Court
A19-1994
—————
Roque "Rocky" De La Fuente, et al.
Petitioners,
vs.
Steve Simon, Minnesota Secretary of State,
Respondent.
—————
ORDER
On December 13, 2019, petitioners Roque "Rocky"
De La Fuente and James Martin, Jr. Filed a petition
under Minn. Stat. § 204B.44(a) (2018). Petitioners
ask our court to direct respondent Steve Simon,
Minnesota Secretary of State, to include De La
Fuente's name as a candidate for the Republican
Party's nomination for United States President on
the ballot for Minnesota's March 3, 2020,
presidential nomination primary election. Under the
statutes that govern Minnesota's presidential
nomination primary election, the participating major
political parties must “determine which candidates
are to be placed on” the party's ballot and submit
those names to the Secretary of State, decide
whether the party's ballot should include a “blank

2a
line” that allows “a voter [to] write in the name of a
person who is not listed on the ballot,” and submit to
the Secretary of State “the names of write-in
candidates” whose votes should be counted for the
party. Minn. Stat. § 207A.13 (2018). The chair of the
Republican Party of Minnesota notified the Secretary
of State on October 24, 2019, that the candidate for
that party's ballot is Donald J. Trump.
Petitioners assert that by converring sole
authority on political parties to determine which
candidates' names will be on the ballot, and whether
to allow write-in voting and if so which candidates'
votes to count, section 207A.13 violates the
Minnesota Constitution's prohibition on special laws
that grant special or exclusive privileges to a private
corporation, association, or individual, Minn. Const.
art. XII, § 1; the presidential Eligibility Clause of the
United States Constitution, U.S. Const. art. II, § 1,
cl. 5; and candidates' and voters' rights of free
association under the First and Fourteenth
Amendments to the United States Constitution, U.S.
Const. amends. I, XIV. The petition was served on
Minnesota's major political parties, the candidates
designated by Minnesota's Republican and
Democratic-Farmer-Labor (DFL) parties to appear on
the ballots for the primary election, and the
Secretary of State.
We directed the parties to file briefs addressing
petitioners' claims and invited amicus participation

3a
by Minnesota's major political parties and the
candidate for the Republican Party's nomination as
president. Petitioners, in their brief, ask that we
declare Minn. Stat. § 207A.13, subd. 2(a)-(b),
unconstitutional and direct the Secretary of State to
include De La Fuente's name and the names of the
other Republican Party candidates on the ballot for
Minnesota's presidential nomination primary. The
Secretary of State, in response, asserted first that we
should dismiss the petition based on laches because
petitioners delayed unreasonably in asserting their
claims, resulting in prejudice. See Winters v.
Kiffmeyer, 650 N.W.2d 167, 169 (Minn.2002)
(explaining that laches prevents the party who has
not been diligent in asserting a known right from
recovering against a party who is prejudiced by the
delay). The Secretary also asserts that petitioners'
claims fail as a matter of law. The Minnesota DFL
Party filed a brief in support of the Secretary of
State; the Minnesota Republican Party has not
appeared in this action. We held oral argument on
January 9, 2020.
We conclude that laches does not bar
consideration of the petition. We further conclude
that petitioners' claims lack legal merit.
Based upon all the files, records, and proceedings
herein,
IT IS HEREBY ORDERED THAT:
1. The petition of Roque “Rocky” De La Fuente

4a
and James Martin, Jr., under Minn. Stat.
§ 204B.44(a) (2018), be, and the same is, denied.
2. So as not to impair the orderly election
process, this order is issued with an opinion to follow.
Dated: January 9, 2020
BY THE COURT:
/s/
Lorie S. Gildea
Chief Justice

5a
APPENDIX B: OPINION OF THE MINNESOTA SUPREME
COURT OPINION (MARCH 18, 2020)
————— ♦ —————
State of Minnesota
In Supreme Court
A19-1994
—————
Roque “Rocky” De La Fuente, et al.,
Petitioners,
vs.
Steve Simon, Minnesota Secretary of State,
Respondent.
Original Jurisdiction
Per Curiam
Filed: March 18, 2020
Office of Appellate Courts
—————
Erick G. Kaardal, Mohrman, Kaardal & Erickson,
P.A., Minneapolis, Minnesota, for petitioners.
Keith Ellison, Attorney General, Nathan J.
Hartshorn, Assistant Attorney General, Saint Paul,
Minnesota, for respondent.
Charles N. Nauen, David J. Zoll, Lockridge Grindal
Nauen P.L.L.P., Minneapolis, Minnesota, for amicus
curiae Minnesota Democratic-Farmer-Labor Party.
—————
SYLLABUS
1. Petitioners’ constitutional challenges to Minn.
Stat. § 207A.13 (2018), are not barred by the doctrine

6a
of laches.
2. Minnesota Statutes § 207A.13 does not violate
the prohibition against special privileges, Minn.
Const. art. XII, § 1, because the Legislature had a
rational basis for classifying political parties based
on a party’s participation in a national convention to
nominate the party’s presidential candidate.
3. Minnesota Statutes § 207A.13 does not violate
the Presidential Eligibility Clause, U.S. Const. art.
II, § 1, cl. 5, because requiring a political party to
identify the candidates for the ballot to be used in a
presidential nomination primary is not a condition of
eligibility to serve as President of the United States.
4. Minnesota Statutes § 207A.13 does not violate
petitioners’ rights of free association under the First
and Fourteenth Amendments to the United States
Constitution, because any burden imposed on those
rights by the ballot-preparation procedures in the
statute is de minimis and outweighed by the
associational rights of political parties and the
State’s regulatory interests.
Petition denied.
OPINION
PER CURIAM.
The Chair of The Republican Party of Minnesota
notified the Minnesota Secretary of State on October
24, 2019, that its candidate for the ballot in the
presidential nomination primary held in Minnesota
on March 3, 2020, is Donald J. Trump. On December

7a
13, 2019, petitioners Roque “Rocky” De La Fuente
and James Martin, Jr. filed a petition under Minn.
Stat. § 204B.44(a) (2018), asking that we direct
respondent Steve Simon, the Minnesota Secretary of
State, to include De La Fuente’s name as a candidate
for The Republican Party of Minnesota’s nomination
for United States President on that ballot.1
Petitioners assert that the procedure established by
Minn. Stat. § 207A.13 (2018), which allows a major
political party to determine which candidates’ names
will be on the ballot for a statewide presidential
nomination primary, violates: (1) the Minnesota
Constitution’s prohibition on laws that grant special
or exclusive privileges to a private corporation,
association, or individual, Minn. Const. art. XII, § 1;
(2) the Presidential Eligibility Clause of the United
States Constitution, U.S. Const. art. II, § 1, cl. 5; and
(3) candidates’ and voters’ rights of free association
under the First and Fourteenth Amendments to the
United States Constitution.
We directed the parties to file briefs addressing
petitioners’ claims. The Minnesota DemocraticFarmer-Labor Party appeared as amicus curiae in
support of respondent. We held oral argument on
January 9, 2020. In an order filed on January 9,
2020, we denied the petition. This opinion explains
1

Martin is a resident of Minnesota who is eligible to vote. He
intended to vote, via absentee ballot, in Minnesota’s
presidential nomination primary, and stated in the petition
that he intended to vote for De La Fuente

8a
the reasons for our decision.
FACTS
Before turning to the facts, some background on
Minnesota’s electoral processes for presidential
nominees and candidates will be helpful to
understand the legal issues presented by this case.
At issue here is the ballot for the presidential
nomination primary, which was held in Minnesota on
March 3, 2020. Generally, in Minnesota, a primary
election determines which candidates will advance to
the general-election ballot, including as a nominee of
a major political party. See Minn. Stat. § 204D.10,
subd. 1 (2018) (“The candidate for nomination of a
major political party for a partisan office on the state
partisan primary ballot who receives the highest
number of votes shall be the nominee of that political
party for that office.”). Most candidates for statewide
public office, including congressional and state
legislative offices, file an affidavit of candidacy to
appear on a primary election ballot. See Minn. Stat.
§ 204B.03 (2018) (“Candidates of a major political
party for any partisan office except presidential
elector . . . shall apply for a place on the primary
ballot by filing an affidavit of candidacy[.]”).
State primary elections for presidential nominees
and candidates are different. Before 2020,
Minnesota last held a presidential nominating
primary in 1992. At that time, a candidate’s name
was listed “on the appropriate major political party

9a
presidential ballot” if the person (1) filed an affidavit
of candidacy and paid a filing fee, or (2) was
nominated by a petition. Minn. Stat. § 207A.02,
subd. 1 (1992). In other years, Minnesota voters
indicated “their preference for the offices of president
of the United States” at statewide caucuses. Minn.
Stat. § 202A.18, subd. 2a (2000); see also Minn. Stat.
§ 202A.14, subd. 1 (2018) (requiring “a party caucus”
to be held in “every state general election year”).
When a caucus was held in presidential election
years, candidates for president and vice-president
did not “file an affidavit of candidacy for office.”
Minn. Stat. § 204B.06, subd. 4 (2018).
In 2016, the Minnesota Legislature enacted
provisions to re-establish a presidential nomination
primary. Act of May 22, 2016, ch. 162, §§ 9–13, 2016
Minn. Laws 605, 609–12 (codified as amended at
Minn. Stat. ch. 207A (2018 & Supp. 2019)). This
primary is limited to participation by “a major
political party that selects delegates . . . to send to a
national convention.” Minn. Stat. § 207A.11(d)
(Supp. 2019) (excluding from the presidential
nomination primary those major political parties
that do “not participate in a national convention”).
Each political party participating in the
presidential nomination primary has a ballot. Minn.
Stat. § 207A.13, subd. 1(b). The party “must
determine which candidates are to be placed on the
presidential nomination primary ballot for that

10a
party[,]” submitting the candidate names to the
secretary of state “no later than 63 days before the
presidential nomination primary.” Id., subd. 2(a).
“Once submitted, changes must not be made to the
candidates that will appear on the ballot.” Id. But
the party chair can ask the secretary of state to
include “a blank line printed below the other choices
on the ballot so that a voter may write in the name of
a person who is not listed on the ballot.” Id., subd.
1(c). Seven days before the primary, the party chair
must submit “the names of write-in candidates, if
any, to be counted for that party.” Id., subd. 2(b).
After the primary, the secretary of state notifies
the party chair of the results, which bind the
delegates each party sends to its respective national
convention. Minn. Stat. § 207A.12(c)–(d) (Supp.
2019). Thereafter, in accordance with each party’s
rules and by a date set by the Legislature, the party
chair informs the secretary of state of the name of
the party’s presidential candidate to appear on the
general election ballot, see Minn. Stat. §§ 208.03–.04
(2018).
With this overview in mind, we turn to the facts,
which are undisputed. De La Fuente, a California
resident, announced on May 16, 2019, that he would
seek the national Republican Party’s nomination for
United States President in 2020. On October 24,
2019, the Chair of The Republican Party of
Minnesota notified the Secretary of State that the

11a
party had determined that Donald J. Trump’s name
should appear on the ballot for Minnesota’s
presidential nomination primary; no other
announced candidates for the national Republican
Party’s nomination for president were included in
that notice.
On October 25, 2019, De La Fuente wrote to
Secretary Simon and Minnesota Attorney General
Keith Ellison, stating that Minn. Stat. § 207A.13 was
“likely unconstitutional.” He asked for a “written
guarantee” that his name would “appear on
Minnesota’s 2020 Republican presidential primary
election ballot[.]” There was no response to this
letter.
On December 13, 2019, De La Fuente and Martin
filed a petition with our court under section
204B.44(a), asserting that the failure to include De
La Fuente’s name on the ballot as a candidate for
The Republican Party of Minnesota’s nomination
violated the United States and Minnesota
Constitutions.2 We directed the parties to file briefs
addressing petitioners’ claims and invited amicus
participation by Minnesota’s major political parties3
2

3

On November 26, 2019, De La Fuente filed a complaint in
federal district court, asserting two as-applied
constitutional challenges to Minnesota’s presidential
primary statute. De La Fuente v. Simon, No. 0:19-cv-02995
(D. Minn. Nov. 26, 2019). That action remains pending in
the federal district court.
See Minn. Stat. § 200.02, subd. 7 (2018) (defining “major

12a
as well as other candidates. The Minnesota
Democratic-Farmer-Labor Party filed a brief as
amicus curiae in support of respondent.4 On
December 23, 2019, The Republican Party of
Minnesota, through its chair, asked the Secretary of
State to place a write-in “option” on the party’s ballot
for the presidential nomination primary. See Minn.
Stat. § 207A.13, subd. 1(c) (“If requested by a party
chair, the ballot for that party must contain a blank
line . . . [to] write in the name of a person who is not
listed on the ballot.”).
ANALYSIS
Petitioners assert three constitutional challenges
to Minnesota’s statutory process for candidate
placement on the presidential nomination primary
ballot: (1) under Article XII, Section 1 of the
Minnesota Constitution, (2) under Article II, section
1, clause 5 of the United States Constitution, and (3)
under the First and Fourteenth Amendments to the
United States Constitution. The Secretary of State,
in response, asserts that petitioners’ claims are
barred by laches and fail as a matter of law.

4

political party”).
Petitioners did not name The Republican Party of
Minnesota as a respondent in this action, and the Secretary
of State does not assert that we cannot proceed in the
absence of that entity. See Schulz v. Town of Duluth, 936
N.W.2d 334, 339 (Minn. 2019) (noting that the failure to
join a necessary party does not deprive a court of
jurisdiction over the action).

13a
Statutes are presumed constitutional and “the
party that asserts otherwise bears a heavy burden to
overcome that presumption.” Kimberly-Clark Corp.
v. Comm’r of Revenue, 880 N.W.2d 844, 848 (Minn.
2016). And petitioners bear the burden of proof to
demonstrate that there is an error that requires
correction. See Paquin v. Mack, 788 N.W.2d 899, 904
(Minn. 2010) (explaining that the petitioner
asserting that a ballot error or omission exists bears
the burden of showing that a correction is required).
I.
We begin with the Secretary of State’s argument
that the petition is barred by laches. He asserts that
petitioners knew for 6 weeks before commencing this
action that De La Fuente’s name would not be on The
Republican Party of Minnesota’s presidential
nomination primary ballot. This was an
unreasonable delay, the Secretary asserts, because
the process for preparing, printing, and distributing
ballots would be well underway while this challenge
was pending before the court.
Laches “ ‘prevent[s] one who has not been diligent
in asserting a known right from recovering at the
expense of one who has been prejudiced by the delay.’
” Winters v. Kiffmeyer, 650 N.W.2d 167, 169 (Minn.
2002) (quoting Aronovitch v. Levy, 56 N.W.2d 570,
574 (Minn. 1953)). We have declined to hear a
challenge to an election ballot on grounds of laches.
See Trooien v. Simon, 918 N.W.2d 560, 561 (Minn.

14a
2018) (order) (dismissing a ballot challenge, noting
that “millions of ballots were prepared” and early
voting had begun before the candidate filed the
challenge); Clark v. Reddick (Reddick), 791 N.W.2d
292, 294–96 (Minn. 2010) (declining to hear a
challenge to a ballot when the petitioner waited more
than 2 months to file the petition, which was 15 days
before absentee ballots were to be made available to
voters); Clark v. Pawlenty (Pawlenty), 755 N.W.2d
293, 301–03 (Minn. 2008) (declining to hear a
challenge to a primary ballot when ballots had
already been printed and absentee ballots
distributed).
“The first step in a laches analysis is to determine
if petitioner unreasonably delayed asserting a known
right.” Monaghen v. Simon, 888 N.W.2d 324, 329
(Minn. 2016). In assessing whether the delay is
unreasonable, we look to the information provided by
public filings with the secretary of state. For
example, in Reddick, we looked to the information
available in an affidavit of candidacy to conclude that
a petitioner’s “duty to inquire” was triggered by that
public filing. 791 N.W.2d at 294–95. And in
Pawlenty, we held that a challenge to the designation
of a candidate as the “incumbent” “could have been
made as soon as” the candidate “filed [an] affidavit of
candidacy[.]” 755 N.W.2d at 300. Based on the
public availability of these filings and the time
constraints associated with elections, we have

15a
demanded diligence in asserting known rights. See,
e.g., Trooien, 918 N.W.2d at 561 (“The orderly
administration of elections does not wait for
convenience.”); Peterson v. Stafford, 490 N.W.2d 418,
419 (Minn. 1992) (explaining that the “nature of
matters implicating election laws . . . requires
expeditious consideration and disposition” given the
“time constraints imposed by ballot preparation and
distribution” and thus petitioners must “act[]
promptly in initiating” challenges).
Petitioners assert that they did not delay
unreasonably because De La Fuente did not know
(nor did voters) whether any write-in votes for his
candidacy would be counted. The deadline for The
Republican Party of Minnesota to ask for a specific
write-in candidate’s votes to be counted was
February 25. See Minn. Stat. § 207A.13, subd. 2(b)
(requiring the party to “submit . . . the names of
write-in candidates, if any, to be counted for that
party” by “the seventh day before the presidential
nomination primary”). Thus, petitioners assert,
when the petition was filed they did not finally know
whether De La Fuente’s candidacy would be before
voters because The Republican Party of Minnesota
had not yet notified the Secretary of State which
write-in candidates’ votes should be counted.
But petitioners’ claims do not rest solely on the
write-in option; they also challenge the ballot process
that began on October 24, when The Republican

16a
Party of Minnesota notified the Secretary of State of
its candidate decision. Further, it appears that De
La Fuente was aware of his legal claims as of
October 25 because, on that date, he notified state
officials—the Secretary of State and the Attorney
General—of a potential constitutional infirmity in
section 207A.13, and asked for a “written guarantee”
that his name would be on the ballot or that the
statute would not be enforced. Then, he filed a
federal lawsuit asserting some of the same
constitutional claims that are asserted here.
De La Fuente correctly notes, however, that the
political parties that participate in the presidential
nomination primary continue to exercise control over
the election processes, to some degree, up until a
week before the election. And neither the Secretary
of State nor the Attorney General responded to De La
Fuente’s letter to address his assertion that section
207A.13 imposes an unconstitutional ballot-access
restriction or his request for a remedy. Finally,
almost 5 weeks remained between the time De La
Fuente filed this action and when ballots were to be
made available for early voting. See Minn. Stat. §
204B.35, subd. 4 (2018) (ballots for absentee voting).
Laches is an equitable doctrine, so we must
balance the important interests of voters in using an
accurate ballot against the prejudice to election
officials and other candidates if the orderly
administration of elections is impaired. See Martin

17a
v. Dicklich, 823 N.W.2d 336, 342 (Minn. 2012)
(noting that “some prejudice” would result “due to
the expense incurred in reprinting ballots” but the
“paramount interest of voters, who are entitled to a
ballot that accurately identifies the candidates
actually running for office,” outweighed that result);
Pawlenty, 755 N.W.2d at 303 (considering “the
significant potential prejudice to respondents, to
other election officials, to [the candidate] and
potentially to other candidates, and to the electorate”
if relief is granted). Ultimately, in this case, that
balance tips in petitioners’ favor.
We have said before and we reiterate here again,
in the clearest terms possible: potential challengers
and candidates who assert that an error or omission
exists on a ballot cannot tarry. See Martin, 823
N.W.2d at 342 (stating that candidates “must judge
carefully whether they can afford to wait even a few
days before acting upon a known right”). Here, we
conclude that petitioners’ delay does not appear to
have imposed substantial burdens or prejudice on
ballot preparation or other candidates. Voter
interests in a ballot that accurately identifies the
candidates for whom a vote can be cast in the
presidential nomination primary, at least in this
case, outweigh the uncertainty caused by petitioners’
delay. We therefore hold that petitioners’ claims are
not barred by the doctrine of laches.

18a
II.
Turning to the merits, we begin with petitioners’
claim under the Minnesota Constitution. Article 12,
Section 1 of the Minnesota Constitution states that
“when a general law can be made applicable, a
special law shall not be enacted except as” otherwise
provided. This provision also prohibits the
Legislature from “granting to any private
corporation, association, or individual any special or
exclusive privilege, immunity or franchise
whatever[.]” Id.5
Petitioners assert that Minn. Stat. § 207A.13
gives certain political parties special privileges, in
violation of the special-privileges clause in the
Minnesota Constitution. Specifically, petitioners
contend that the Legislature has given certain
political parties—those that use a national
5

Before the reorganization of the Minnesota Constitution in
1974, the prohibition on special laws and the granting of
special or exclusive privileges was found in Article 4,
Section 33 of the Minnesota Constitution, which was added
in 1881, see Minn. Const. of 1857, art. IV, § 33 (1881)
(prohibiting the Legislature from “granting to any
individual, association, or corporation, except municipal,
any special or exclusive privilege, immunity or franchise
whatever.”). This provision was amended in 1958 by
inserting the word “private” into the clause. See Minn.
Const. of 1857, art. IV, § 33 (1958) (prohibiting the
Legislature from “granting to any private corporation,
association or individual any special or exclusive privilege”
(emphasis added)).

19a
convention to determine the party’s nominee for
president—the right to arbitrarily create classes of
primary-election presidential candidates. This
special privilege exists, petitioners contend, in the
parties’ right to identify the candidates that will be
placed on the presidential nomination primary ballot,
decide whether a write-in option will be available on
the ballot, and if so, decide which write-in
candidates’ votes will be counted for that party. See
Minn. Stat. § 207A.13, subd. 2(a)–(b).
The Secretary of State disagrees. He argues that
“Article XII, section 1 is . . . facially inapplicable”
here because it only “bars the legislature from
granting special privileges to a specific ‘private
corporation, association, or individual.’ ” Then, he
contends that section 207A.13 does not run afoul of
this constitutional provision because the legislation
does not apply to a specific association; rather, it
“grants the right to participate in the presidential
nomination primary, and thus to determine the
names of the candidates authorized to run in that
primary, to any and every major political party in
Minnesota that conducts a national convention.”6
6

The Secretary of State also contends that even if Minn. Stat
§ 207A.13 violates Article XII, Section 1 of the Minnesota
Constitution, he still must comply with federal law. He
explains that the major political parties have a First
Amendment right “not to be forced to associate unwillingly
with individuals who run for President[,]” and thus, he
could not “lawfully require” The Republican Party of

20a
The Legislature has the power to classify, and the
“constitutional prohibition against special legislation
on a particular subject does not deprive the
legislature of the power to divide [the subject] into
classes, and apply different rules to the different
classes[.]”7 State ex rel. Bd. of Courthouse & City

7

Minnesota to include the name of a candidate on its ballot
that the party had not decided to associate with in the
primary election. Because we conclude that Minn. Stat. §
207A.13 does not violate Article XII, Section 1, of the
Minnesota Constitution, we need not consider the Secretary
of State’s conflict argument.
We have used essentially the same test for claims that
assert a violation of the general prohibition on special
legislation, which is found in the first sentence of Article
XII, Section 1 (or its predecessor, Article 4, Section 33), of
the Minnesota Constitution and for claims that assert a
violation of the special-privileges clause, in the second
sentence of that section of the Minnesota Constitution.
Compare In re Tveten, 402 N.W.2d 551, 558–59 (Minn.
1987) (addressing a claim that a statute violated the
general prohibition on special legislation), and Visina v.
Freeman, 89 N.W.2d 635, 650–51 (Minn. 1958) (same), with
Fabio v. City of Saint Paul, 126 N.W.2d 259, 261–63 (Minn.
1964) (addressing a claim that a statute was a special law
granting special or exclusive privileges to a corporation,
association, or individual), Minneapolis Gas Co. v.
Zimmerman, 91 N.W.2d 642, 654–65 (Minn. 1958) (same),
Wichelman v. Messner, 83 W.2d 800, 823–25 (Minn. 1957)
(same), and State ex rel. Bd. of Courthouse & City Hall
Comm’rs v. Cooley, 58 N.W. 150, 152–54 (Minn. 1893)
(addressing a claim that a statute was a special law
regulating the affairs of any county or city).

21a
Hall Comm’rs v. Cooley, 58 N.W. 150, 152 (Minn.
1893). “A law is general, in the constitutional sense,
which applies to and operates uniformly upon all
members of any class of persons, places, or things
requiring legislation peculiar to itself in matters
covered by the law . . . .” Id. at 153; see also State ex
rel. Oblinger v. Spaude, 34 N.W. 164, 165 (Minn.
1887) (stating that a law may be general even though
it does “not operate alike upon all the inhabitants of
the state”). On the other hand, “a special law is one
which relates and applies to particular members of a
class, either particularized by the express terms of
the act, or separated by any method of selection from
the whole class to which the law might, but for such
limitation, be applicable.” Cooley, 58 N.W. at 153.
The power to classify is not, however, limitless;
the Legislature must “adopt[] a proper basis of
classification.” Id. at 152. When the Legislature
does so, we “will not interfere with” that
“classification unless it is so manifestly arbitrary as
to evince a purpose of evading the constitution.”
Minneapolis Gas Co. v. Zimmerman, 91 N.W.2d 642,
654 (Minn. 1958); see also Kaljuste v. Hennepin Cty.
Sanatorium Comm’n, 61 N.W.2d 757, 764 (Minn.
1953) (stating that we will not “speculate upon the
considerations which motivate the legislature” and
noting that the question of classification “is primarily
for the legislature”). The burden of proving that a
classification is unreasonable and arbitrary is on the

22a
person challenging the law. George Benz Sons, Inc.
v. Ericson, 34 N.W.2d 725, 731 (Minn. 1948).8
We have used a deferential “three point ‘rational
basis’ test” to assess the constitutionality of a
legislative classification. In re Tveten, 402 N.W.2d
551, 558 (Minn. 1987). A classification is
8

We reject petitioners’ proposal to apply strict scrutiny to
this claim. Petitioners do not cite a case in which we have
applied that standard, and our case law does not suggest
that we will use a strict-scrutiny standard simply because
the claims involve elections, see, e.g., Tveten, 402 N.W.2d at
559 (applying a rational-basis standard to debtors’ claims in
a bankruptcy proceeding). We also reject the Secretary of
State’s argument that the constitutional prohibition on
granting special privileges applies only when a special
privilege has been granted to one private corporation,
association, or person. The plain language of the
constitution prohibits the Legislature from passing special
laws “granting to any private corporation, association, or
individual any special or exclusive privilege, immunity or
franchise whatever[,]” Minn. Const. art. XII, § 1 (emphasis
added), and we have invalidated laws that improperly
granted a special privilege to more than one person, see In
re Humphrey, 227 N.W. 179, 179–80 (Minn. 1929) (finding
that a statute allowing a person, who had served in World
War I, been honorably discharged, and received a disability
rating of a certain level, to be admitted to the practice of
law without passing the bar exam was a special law
granting a special privilege, in violation of the constitution);
see also Tveten, 402 N.W.2d at 560 (holding that statutes
granting a limitless exemption to debtors who had
purchased annuities or unmatured life insurance from a
fraternal benefit society violated the constitution’s general

23a
constitutional if:
(a) the classification applies to and embraces
all who are similarly situated with respect to
conditions or wants justifying appropriate
legislation; (b) the distinctions are not manifestly
arbitrary or fanciful but are genuine and
substantial so as to provide a natural and
reasonable basis justifying the distinction; and (c)
there is an evident connection between the
distinctive needs peculiar to the class and the
remedy or regulations therefor which the law
purports to provide.
Id. at 558–59 (quoting Wichelman v. Messner, 83
N.W.2d 800, 824 (Minn. 1957)).
First, we identify the classification at issue. The
plain language of section 207A.11 establishes a
classification between major political parties that use
a national convention to determine the national
party’s nominee for president, and all other political
parties. See Minn. Stat. § 207A.11(d). The statute
applies to all who are similarly situated at the time
of a state presidential nomination primary: major
political parties that participate in a national
nominating convention.9 See, e.g., State ex rel. Flaten
9

prohibition on special laws).
Minnesota distinguishes between major and minor political
parties based on, among other criteria, recent election
results. See Minn. Stat. § 200.02, subd. 7 (2018) (defining
“major” political parties based in part on vote totals in
recent elections); id., subd. 23 (2018) (defining “minor”

24a
v. Indep. Sch. Dist. of Granite Falls, 174 N.W. 414,
415 (Minn. 1919) (noting that a classification is
general if the statute is framed so as to apply to
others “as they may acquire the characteristics of the
class”).
Second, the distinction drawn between major
political parties that use a national convention to
determine their party’s nominee for president and
other political parties is genuine and substantial and
has a reasonable basis. See General Mills, Inc. v.
Div. of Emp’t & Sec. for Minn., 28 N.W.2d 847, 850
(Minn. 1947) (stating that a classification will not be
unconstitutional if the persons within the class are
similarly treated and “the distinctions between the
classes bear a reasonable relationship to the objects
of the legislation”). Political parties that use a
national convention to nominate a candidate for
president may also use state presidential primaries
to gather voter input for the decision to be made at
the national convention: the national party’s
candidate for a general-election ballot. See, e.g.,
political parties based in part on the same). Two of
Minnesota’s major political parties, the Legal Marijuana
Now Party and the Grassroots-Legalize Cannabis Party,
notified the Secretary of State that they do not hold or
participate in national nominating conventions. Thus,
these major political parties were not eligible to participate
in the 2020 presidential nomination primary. See Minn.
Stat. § 207A.11(d) (“A major political party that does not
participate in a national convention is not eligible to
participate in the presidential nomination primary.”).

25a
Belluso v. Poythress, 485 F. Supp. 904, 912 (N.D. Ga.
1980) (explaining that a presidential primary
“merely effects a recommendation to the [political]
parties” and “the importance of the primary lies
within the discretion of the party”). The candidates
of political parties, major or minor, that do not use
national nominating conventions have access to the
ballot for the general election through nominating
petitions. See Minn. Stat. § 204B.07, subds. 1–2
(2018) (identifying the requirements for nominating
petitions including for “presidential electors or
alternates . . . nominated by petition” rather than
certified by a major political party). And, candidates
that are not nominated at a national convention or
by nominating petition have access to the generalelection ballot through a write-in process. See Minn.
Stat. § 204B.09, subd. 3(b) (2018) (establishing the
requirements for write-in candidates for president).
In other words, different processes are needed for
different avenues to the general-election ballot; but
in the end, any presidential candidate who satisfies
statutory requirements has access to the generalelection ballot, regardless of the candidate’s access to
the presidential nomination primary ballot. See
Minn. Stat. § 208.04, subd. 1 (requiring the general
election ballot to include “the names of the
candidates of each major political party and the
candidates nominated by petition”); see also
LaRouche v. Sheehan, 591 F. Supp. 917, 927 (D. Md.

26a
1984) (rejecting an equal-protection challenge to a
state law regulating access to a primary election
ballot, because the statute applies only to major
political parties who “ ‘use a primary election’ as a
device to nominate a candidate for president,” and
thus does not “freeze[] the status quo to the
detriment of minority parties” (citation omitted));
Belluso, 485 F. Supp. at 912 (“Denied the chance to
claim the Republican nomination, [a candidate] may
nevertheless seek the Presidency in the general
election independently or as the candidate of a
smaller political party.” (footnote omitted)). Thus,
the distinction drawn in section 207A.13 is
substantial and is reasonably related to the needs of
a specific class of political parties, those whose
presidential candidates for the general election are
determined by events that occur outside of
Minnesota.
Third, an evident connection exists between the
needs of major political parties who use a national
convention to determine the national party’s nominee
for president and the statutory requirements for the
ballot to be used in Minnesota’s presidential
nomination primary. These political parties are
governed both by national party rules that address
the selection of the national party’s nominee at a
national convention,10 and state law requirements for
10 See, e.g., 2016 Republican National Convention, The Rules
of the Republican Party Rule Nos. 16 (describing the
delegate process in states that permit a “statewide

27a
candidate placement on the general-election ballot,
see, e.g., Minn. Stat. § 208.03 (requiring the state
party chair to “certify to the secretary of state . . . the
names of the party candidates for president and vice
president”). The national framework and
Minnesota’s statutory processes for the general
election make it reasonable to provide a measure of
control to the parties in deciding which names will be
on the ballot for Minnesota’s presidential nomination
primary as candidates for the national party’s
nomination. Section 207A.13 thus strikes a balance
between political parties’ national nomination
processes, and the State’s need to prepare and make
available a ballot for only one election, a presidential
nomination primary.
Petitioners contend that section 207A.13 fails the
rational-basis test because the legislation is not
intended to avoid ballot clutter, provide voters with a
more manageable ballot, or require candidates to
demonstrate some minimum level of public or party
support to gain access to the ballot. This argument
misapprehends our rational-basis test. We do not
inquire under this test whether an alleged
prohibition on special laws or privileges furthers
some specific interest; rather, we ask whether there
presidential preference vote” in a primary, caucus, or
convention), 40(d) (requiring the “candidates nominated by
the [national] Republican Party” to be declared before the
national convention “adjourns sine die”) (2016) (amended
2018).

28a
is a rational reason for making the classification at
issue. We conclude that there is a rational reason
here, and that ends our inquiry. See Kaljuste, 61
N.W.2d at 764 (“The courts are not at liberty . . . to
declare void legislative classification where there is
some reason therefor . . . .” (emphasis added)); Arens
v. Vill. of Rogers, 61 N.W.2d 508, 516 (Minn. 1953)
(“Our task is not to appraise the desirability of what
the legislature has done nor decide what
classification, if any, is the best, but is rather to
determine whether there is any reasonable basis or
justification for the classification adopted by the
legislature.” (emphasis added)). We therefore hold
that petitioners’ claim under the special-privileges
clause in Article XII of the Minnesota Constitution
fails as a matter of law.
III.
Next, we consider petitioners’ claim under the
Presidential Eligibility Clause of the United States
Constitution. There are essentially three criteria to
serve as President of the United States: citizenship,
an age of 35 years or older, and residency in the
United States.
No Person except a natural born Citizen, or a
Citizen of the United States, at the time of the
Adoption of this Constitution, shall be eligible to
the Office of President; neither shall any Person
be eligible to that Office who shall not have
attained to the Age of thirty five Years, and been

29a
fourteen Years a Resident within the United
States.
U.S. Const. art. II, § 1, cl. 5.
Petitioners contend that section 207A.13 imposes
an additional eligibility requirement on candidates
for president: party approval. Because the
Presidential Eligibility Clause in the federal
Constitution provides the exclusive requirements for
the President, they assert that state law cannot
impose additional requirements. They also contend
that there are no state interests in this requirement
because the statute imposes no limit on the number
of candidates, nor any standards related to a showing
of public support for any candidate.11
The Presidential Eligibility Clause serves as the
exclusive source for the qualifications to serve as
President. LaRouche v. Hannah, 822 S.W.2d 632,
633 (Tex. 1992) (acknowledging election official’s
statement that “the United States Constitution
establishes the exclusive requirements for the office
of the President” and thus state law could not
exclude a candidate from a presidential primary
ballot based on a prior felony conviction); see U.S.
Term Limits, Inc. v. Thornton, 514 U.S. 779, 806
(1995) (stating that “the Qualification Clauses” in
11 The Secretary of State did not specifically address this
claim in his brief. The DFL Party, as amicus, argues that
section 207A.13 guides the State’s process in preparing the
ballot for the primary, rather than establishing an
officeholder-eligibility standard.

30a
Article I “were intended to . . . fix as exclusive the
qualifications in the Constitution”);12 Danielson v.
Fitzsimmons, 44 N.W.2d 484, 486 (Minn. 1950)
(noting that the qualifications for election to
Congress “are prescribed by the United States
constitution, and the state may not enlarge or modify
such qualifications”); State ex rel. Eaton v. Schmahl,
167 N.W. 481, 481 (Minn. 1918) (stating that the
qualifications for “those aspiring to or holding”
congressional office are “prescribed by the federal
Constitution, which the state is without authority to
modify or enlarge in any way”).
There is a difference between constitutional
qualifications for the office and procedural ballotaccess or election requirements. See Cook v. Gralike,
531 U.S. 510, 523–24 (2001) (noting that states have
the authority “to prescribe the procedural
mechanisms for holding congressional elections,”
within certain constitutional limits); Cartwright v.
Barnes, 304 F.3d 1138, 1143–44 (11th Cir. 2002)
(distinguishing between “ballot access restrictions
that are election procedures and not substantive
12 The U.S. Term Limits decision addressed the constitutional
qualifications for members of Congress. See 514 U.S. at
782–83; see also U.S. Const. art. I, § 2, cl. 2 (House); U.S.
Const. art. I, § 3, cl. 3 (Senate). The Presidential Eligibility
Clause is “nearly identical to the congressional clauses[,]”
and thus the rationale of the U.S. Term Limits decision has
been applied to challenges brought under the Presidential
Eligibility Clause. De La Fuente v. Merrill, 214 F. Supp. 3d
1241, 1253 n.11 (M.D. Ala. 2016).

31a
qualifications,” and concluding that a state law
requiring a candidate to present a minimum number
of signatures to appear on the ballot “is not a
‘qualification,’ but a permissible procedural
regulation of the manner in which candidates may
obtain ballot placement”); cf. Storer v. Brown, 415
U.S. 724, 746 n.16 (1974) (noting that a state law
prohibiting a candidate’s disaffiliation with the party
that previously supported the candidate was not “an
additional qualification” for Congress because it is
not unlike “the requirement that the candidate win
the primary to secure a place on the general ballot or
otherwise demonstrate substantial community
support”).13
In Cook, the Supreme Court concluded that a
state-law requirement to note on a ballot whether a
candidate for congressional office supports term
limits “is not a procedural regulation[,]” because it
13 The Minnesota Constitution has provisions that describe
“eligibility” requirements for office and “qualifications” for
office. See Minn. Const. art. VII, § 6 (describing “eligibility”
to hold office); Minn. Const. art. XII, § 3 (describing
“qualifications” for local office). We have said that “a
‘qualification’ for office” is “an element of performance
requiring a particular ability on the part of the person
seeking the position, such as physical agility or the
attainment of a particular level of education[,]” while “an
‘eligibility requirement’ for office” has “nothing to do with
one’s ability to perform the duties of the office in question[.]”
Minneapolis Term Limits Coal. v. Keefe, 535 N.W.2d 306,
309 (Minn. 1995).

32a
did not ensure election integrity, regularity, and
fairness; rather, it was “plainly designed to favor
candidates who are willing to support the” State’s
position on term limits. 531 U.S. at 523–24; see also
Schaefer v. Townsend, 215 F.3d 1031, 1039 (9th Cir.
2000) (holding that a state-imposed residency
requirement for candidates for election to the U.S.
House of Representatives violated the Qualifications
Clause). Thus, state laws that condition access to
the ballot on procedural, as opposed to substantive,
requirements do not violate constitutional eligibility
or qualification clauses. See Cartwright, 304 F.3d at
1144 (holding that a state-law requirement for
independent candidates to submit a petition with a
minimum level of voter support is not a qualification,
but is used to “ ‘demonstrate substantial community
support’ before obtaining a place on the ballot”);
Libertarian Party of Ill. v. Rednour, 108 F.3d 768,
777 (7th Cir. 1997) (upholding a voter-signature
requirement because it “assure[s] that candidates
meet a minimum threshold of voter support” and
does not “systematically exclude[] the Libertarian
candidates from office”).
Minnesota Statutes § 207A.13 directs political
parties to determine which names will be on the
ballot as the party’s candidate(s), and then submit
those names to the secretary of state as the
candidates “for that party.” Minn. Stat. § 207A.13,
subd. 2(a). This directive is not a substantive

33a
eligibility requirement that reflects a personal
characteristic of a candidate; it is a process that
allows political parties to obtain voter input in
advance of a nomination decision made at a national
convention. See, e.g., Belluso, 485 F. Supp. at 912
(noting that a presidential preference primary
“merely effects a recommendation” to political
parties, which the party is free to accept or ignore).
The directive also allows the secretary of state to
prepare, print, and distribute ballots that comply
with state and federal election laws. These
procedural ballot-preparation steps cannot be
equated to the constitutional citizenship, age, or
residency qualifications to serve as President of the
United States.
We therefore hold that petitioners’ claim under
the Presidential Eligibility Clause, U.S. Const. art.
II, cl. 5, fails as a matter of law.
IV.
Last, we consider petitioners’ claim under the
First and Fourteenth Amendments to the United
States Constitution. Petitioners assert that
including De La Fuente’s name on the primary
election ballot is “crucial” to Minnesota voters’ ability
to exercise their fundamental right to vote. They
contend that a statute that allows a political party to
decide whether a candidate’s name will appear on
the ballot or whether any write-in votes for a
candidate will be counted unreasonably burdens

34a
voters’ and candidates’ First Amendment
associational rights.14 They further argue that
Minnesota Statutes § 207A.13 does not serve a valid
state interest because the statute places no limits on
the number of candidates who can be on the ballot,
nor does it require the party or the candidate to show
any measure of public support to secure access to the
ballot. Petitioners also argue that the State’s
interests in regulating candidate access to a ballot
for a presidential nomination primary are
“diminished” because the outcome of such an election
is “ultimately determined beyond the state’s borders
at national political party conventions.” Finally,
petitioners assert that the possibility of a write-in
candidacy is an “illusory” remedy because section
207A.13 confers on political parties the authority to
decide whether to allow write-in votes, and if so,
which write-in candidates’ votes will be counted.
The Secretary of State responds that states have
the authority to regulate the manner in which
elections are conducted, and in particular have a
compelling interest in avoiding a “laundry list”
ballot.15 The Secretary also asserts that states have
14 The United States Supreme Court has said that “the
mechanism” of primary elections “is the creature of state
legislative choice,” and thus is “state action” for purposes of
the Fourteenth Amendment. Bullock v. Carter, 405 U.S.
134, 140 (1972) (internal quotation marks omitted).
15 The Secretary notes that the State has the “power to
regulate [its] own elections[,]” relying on the constitutional

35a
an interest in providing a ballot process that protects
political parties’ freedom of association under the
First Amendment, particularly in the context of a
state presidential nomination primary, which yields
information but not necessarily the party’s candidate
for the general-election ballot.
A.
Several features of Minnesota’s statutory ballotpreparation process for a presidential nomination
primary are relevant to this claim. First, there are
“separate ballots” for each political party. Minn.
Stat. § 207A.13, subd. 1(b). The political party must
“determine which candidates are to be placed on the .
. . ballot for that party[,]” and the party chair must
submit the names of those candidates to the
secretary of state. Id., subd. 2(a). “Once submitted,
changes must not be made to the candidates that will
appear on the ballot.” Id.
Second, “[i]f requested by a party chair,” the
authority for states to regulate “[t]he Times, Places and
Manner of holding Elections for Senators and
Representatives,” U.S. Const. art. I, § 4, a provision that
governs state authority over elections for congressional
offices. Article II of the United States Constitution governs
presidential elections, distributing authority between the
states and Congress. U.S. Const. art. II, § 1, cls. 2, 4
(stating that states appoint presidential electors and
Congress determines the timing of the election and the day
of electoral voting). Still, states have “important regulatory
interests” in fair, honest, and orderly elections. See
Anderson v. Celebrezze, 460 U.S. 780, 788 (1983).

36a
ballot for that party “must contain a blank line
printed below the other choices . . . so that a voter
may write in the name of a person who is not listed
on the ballot.” Id., subd. 1(c). Third, the party chair
“must submit to the secretary of state the names of
write-in candidates, if any, to be counted for that
party.” Id., subd. 2(b) (requiring that submission to
be made no “later than the seventh day before” the
primary). When the results of the election are
declared, “the secretary of state must notify the chair
of each party of the results.” Minn. Stat. §
207A.12(c).
The right to associate with others in advancement
of political viewpoints is protected by the First
Amendment. See Williams v. Rhodes, 393 U.S. 23,
30 (1968); see also Democratic Party of the U.S. v.
Wis. ex rel. La Follette, 450 U.S. 107, 121 (1981)
(explaining that political parties have a
constitutional right “to gather in association for the
purpose of advancing shared beliefs”). The
associational rights and interests of voters,
candidates, and political parties are often
intertwined. See, e.g., Anderson v. Celebrezze, 460
U.S. 780, 788 (1983) (noting that “comprehensive and
sometimes complex election” laws will “inevitably”
impact “the individual’s right to vote” and the “right
to associate with others for political ends”); Bullock
v. Carter, 405 U.S. 134, 143 (1972) (explaining that
“laws that affect candidates” will have “some

37a
theoretical, correlative effect on voters”). But “the
right to vote in any manner and the right to associate
for political purposes through the ballot are [not]
absolute,” Burdick v. Takushi, 504 U.S. 428, 433
(1992), because states have a legitimate interest in
regulating “parties, elections, and ballots to reduce
election- and campaign-related disorder[,]” Timmons
v. Twin Cities Area New Party, 520 U.S. 351, 358
(1997); see Bullock, 405 U.S. at 145 (recognizing
states’ interests in avoiding cluttered ballots, voter
confusion, and maintaining integrity in election
processes).
To balance these competing interests, the
Supreme Court uses a “flexible standard” of review
for First Amendment challenges to state election
laws. Burdick, 504 U.S. at 433–34 (rejecting a closescrutiny review and applying “a more flexible
standard”). In Burdick, the Court considered “the
extent to which a challenged [state] regulation
burdens First and Fourteenth Amendment rights.”
Id. at 434. If those rights are severely restricted, “the
regulation must be narrowly drawn to advance a
state interest of compelling importance.” Id. (citation
omitted) (internal quotation marks omitted). If the
challenged state law “imposes only reasonable,
nondiscriminatory restrictions upon the First and
Fourteenth Amendment rights of voters, the State’s
important regulatory interests are generally
sufficient to justify the restrictions.” Id. (citations

38a
omitted) (internal quotation marks omitted); see also
Timmons, 520 U.S. at 358 (noting that state
regulations regarding who can appear on the ballot
will be upheld if they impose a lesser burden on First
Amendment interests and are reasonably related to
the state’s regulatory interests).
B.
Petitioners assert that their associational rights—
to appear as a candidate on the ballot for Minnesota’s
presidential nomination primary and to vote for De
La Fuente as the candidate for The Republican Party
of Minnesota’s nomination—are impermissibly
burdened by a statute that allows the political
parties to decide whether a candidate’s name will be
on a presidential primary ballot.16 States cannot
keep candidates “off the election ballot,” effectively
“den[ying them] an equal opportunity to win votes.”
Williams, 393 U.S. at 31. And the right to vote may
be burdened unreasonably if candidate choice is
restricted. See Lubin v. Panish, 415 U.S. 709, 716
16 Petitioners also appear to assert an equal-protection claim,
based on the argument that De La Fuente is treated
differently from the other “qualified” presidential candidate
(Donald Trump), and Martin’s absentee vote is treated
differently from the vote of a person who casts a ballot on
March 3 “at the polling place.” This claim is not supported
by any case law; mixes constitutional eligibility standards
with a ballot-access requirement; and because Martin can
cast a vote, either by absentee ballot or at a polling place,
does not demonstrate a difference in treatment between his
vote and the votes of other citizens.

39a
(1974) (noting that the right to vote may be burdened
if a vote “may be cast only for one of two candidates
in a primary election at a time when other
candidates are clamoring for a place on the ballot”).
Minnesota Statutes § 207A.13 appears to sit
uneasily within these principles.17 The road for any
candidate’s access to the ballot for Minnesota’s
presidential nomination primary runs only through
the participating political parties, who alone
determine which candidates will be on the party’s
ballot. Minn. Stat. § 207A.13, subd. 2(a). The
political parties also control the decision on the
availability of an option for write-in candidacies. See
id., subd. 1(c). Finally, once the political parties
make their decisions and notify the secretary of
state, “changes must not be made to the candidates
17 A few other states also allow the political parties to
determine which candidates will appear on a presidential
primary ballot. See, e.g., Fla. Stat. § 103.101(2)–(3) (2019)
(requiring “each political party” to submit “a list of its
presidential candidates” to the Secretary of State for
placement on the “presidential preference primary ballot”
and requiring the candidate’s name to be on the ballot
unless the candidate withdraws); Ga. Code Ann. § 21-2-193
(2019) (directing the parties to provide “a list of the names
of the candidates of such party to appear on the presidential
preference primary ballot”); Wash. Rev. Code § 29A.56.031
(2019) (requiring the parties to “determine which
candidates are to be placed on the” ballot, and stating that
once names are “submitted, changes must not be made to
the candidates that will appear on the ballot”).

40a
that will appear on the ballot.” Id.
The interests advanced by the Secretary of State
do not necessarily address these features. The
asserted interest in avoiding ballot clutter is a
legitimate state interest, see Bullock, 405 U.S. at
145, but nothing in the plain language of section
207A.13 serves that purpose. To the contrary, a
political party could (in theory) submit the names of
every announced candidate for president, and
because “changes must not be made” once the party
does so, Minn. Stat. § 207A.13, subd. 2(a), the
secretary of state would be required to use a ballot
that includes every submitted name.18 Nor is the
other interest identified by the Secretary—protecting
political parties’ associational rights—helpful here.
The State cannot “completely insulate” political
parties from competitive candidates or other parties,
nor protect the “parties from the consequences of
their own internal disagreements[.]” Timmons, 520
U.S. At 366. Further, “when the State gives [a
political] party a role in the election process,” the
party’s rights are “circumscribed” and the State’s
interest in “ensuring the fairness of the party’s
nominating process” is elevated. N.Y. State Bd. of
Elections v. López Torres, 552 U.S. 196, 203 (2008).
Having allowed the parties a role in determining
18 At oral argument, counsel for the Secretary of State
conceded that if a political party did so, the Legislature may
decide to amend the statute to limit the number of
candidates.

41a
which candidates have access to the ballot for the
presidential nomination primary, nothing in section
207A.13 suggests that the State intends to ensure
the fairness of that process. When asked at oral
argument what authority the Secretary of State has
to inquire into a party’s candidate decisions for the
ballot, counsel conceded that “[u]nder these statutes,
none.”
Nonetheless, in the context of this particular
election, we conclude that petitioners have not
demonstrated that Minnesota’s process for preparing
the ballot for a presidential nomination primary
imposes an unconstitutional burden on their
associational rights.
To begin, De La Fuente does not have a
constitutional right to be on this ballot. See López
Torres, 552 U.S. at 205 (stating, in rejecting a
potential candidate’s objection to decisions made by
party leadership, that a candidate does not have a
“constitutional right to have a ‘fair shot’ at winning
the party’s nomination”); Belluso, 485 F. Supp. at 912
(noting that a candidate’s claimed right to associate
with an unwilling political party “is not a first
amendment right”). Similarly, while Martin’s right to
vote is among the “most precious freedoms[,]”
Williams, 393 U.S. at 30, elections are not
understood “to provide a means of giving vent” to
political disputes, Burdick, 504 U.S. at 438. This is
particularly true in presidential preference

42a
primaries.19 See Duke v. Massey, 87 F.3d 1226, 1233
(11th Cir. 1996) (noting the lack of authority
suggesting that voters “have a right to vote for their
candidate of choice . . . in a nonbinding primary”).
Section 207A.13 says nothing about Martin’s right to
cast a vote for the candidate of his choice because the
write-in option is available to him on the primary
19 Contrary to petitioners’ argument, the right to vote in a
state primary on a presidential nominee is not integral to
our republican form of government. The U.S. Constitution
mentions neither political parties, nor the presidential
nominating process. But see Leonard P. Stark, The
Presidential Primary and Caucus Schedule: A Role for
Federal Regulation?, 15 Yale L. & Pol’y Rev. 331, 393 n.180
(1996) (citing to arguments that the electoral college was
intended to serve as a presidential nomination process).
After George Washington declined to seek a third term as
President, and after the disorganized 1796 election in which
13 candidates received presidential nominations, the parties
realized the need for a process to nominate their own
candidates. Joanne B. Freeman, The Election of 1800: A
Study in the Logic of Political Change, 108 Yale L.J. 1959,
1967, 1981 (1999). For the next three decades, the
presidential nomination would be determined by a
congressional caucus. See Zachary M. Bluestone, Note, The
Unscripted Evolution of Presidential Nominations: From
Founding-Era Idealism to the Dominance of Party
Primaries, 39 Harv. J.L. & Pub. Pol’y 963, 978 (2016). It
was not until the 1830s that state caucuses began to
emerge, id., and state presidential primaries do not appear
on the scene in any significant way until the 1900s, id. at
981.

43a
ballot.20 Further, the statute poses no bar to De La
Fuente’s right to be a presidential candidate on the
general election ballot, as a party’s nominee or a
write-in candidate. See López Torres, 552 U.S. at
207–08 (recognizing that candidates’ and voters’
associational rights are “well enough protected” if
there is “an adequate opportunity to appear on the
general-election ballot”). Thus, any burden on
petitioners’ asserted associational rights is at best de
minimis.
In contrast to this de minimis burden, the
associational rights of political parties to choose a
candidate are well-established. See Cal. Democratic
Party v. Jones, 530 U.S. 567, 575 (2000) (noting a
political party’s “important” right to select the party’s
nominee). The associational rights of political
parties includes “the right not to associate.” Id. at
574 (noting that “a corollary of the right to associate
is the right not to associate”). Political parties also
have a First Amendment right “to choose a
candidate-selection process that will in its view
produce the nominee who best represents its political
platform.” López Torres, 552 U.S. at 202. Similarly,
20 The presidential nomination primary ballot included a line
for write-in candidates on The Republican Party of
Minnesota’s ballot, and The Republican Party of Minnesota
notified the Secretary of State to count write-in votes for De
La Fuente. Thus, this case does not present a constitutional
challenge to a ballot that does not include a write-in option
or does not count a candidate’s write-in votes.

44a
the State has an interest, though perhaps limited,
see Jones, 530 U.S. at 572–73 (noting that “the
processes by which political parties select their
nominees are . . . [not] wholly public affairs that
States may regulate freely”), in regulating the ballot
used for this election. Cf. Democratic Party of the
U.S., 450 U.S. at 125–26 (recognizing that states’
limited interests in political parties’ national
conventions for nominating presidential candidates
does “not justify [a] substantial intrusion into the
associational freedoms” of a national political party).
When we consider the de minimis burden on
petitioners’ associational rights against the
legitimate associational interests of the political
parties and the State’s limited regulatory interest,
we conclude that petitioners have not demonstrated
that Minnesota Statutes § 207A.13
unconstitutionally burdens their associational rights
under the First and Fourteenth Amendments to the
United States Constitution. See Carlson v. Simon,
888 N.W.2d 467, 474 (Minn. 2016) (rejecting a First
Amendment challenge to a statutory requirement for
a write-in presidential candidate to name a vicepresidential candidate); Kahn v. Griffin, 701 N.W.2d
815, 833 (Minn. 2005) (concluding that challengers
“failed to provide any principled basis” for the court
to declare a statute unconstitutional). We therefore
hold that petitioners’ First Amendment claim fails as
a matter of law.

45a
CONCLUSION
For the foregoing reasons, the petition of Roque
“Rocky” De La Fuente and James Martin, Jr. under
Minn. Stat. § 204B.44(a), to correct the ballot for the
Minnesota presidential nomination primary election
on March 3, 2020, is denied.
Petition denied.

46a
APPENDIX C: JUDGMENT OF THE MINNESOTA
SUPREME COURT (JUNE 1, 2020)
————— ♦ —————
STATE OF MINNESOTA
SUPREME COURT
JUDGMENT
Roque "Rocky" De La Fuente, et al.
Petitioners,
vs.
Steve Simon, Minnesota Secretary of State,
Respondent.
Appellate Court #A19-1994
Trial Court #
Pursuant to a decision of the Minnesota Supreme
Court duly made and entered, it is determined and
adjudged that the petition is denied and judgment is
entered accordingly.
Dated and signed: June 1, 2020
FOR THE COURT
Attest:
AnnMarie S. O’Neill
Clerk of the Appellate Courts
By:
/s/
Clerk of the Appellate Courts
—————
STATE OF MINNESOTA
SUPREME COURT
TRANSCRIPT OF JUDGMENT
I, AnnMarie S. O’Neill, Clerk of the Appellate
Courts, do hereby certify that the foregoing is a full

47a
and true copy of the Entry of Judgment in the cause
therein entitled, as appears from the original record
in my office; that I have carefully compared the
within copy with said original and that the same is a
correct transcript therefrom.
Witness my signature at the Minnesota Judicial
Center,
In the City of St. Paul
June 1, 2020
Dated
Attest:
AnnMarie S. O’Neill
Clerk of the Appellate Courts
By:
/s/
Clerk of the Appellate Courts

48a
APPENDIX D: CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
————— ♦ —————
The First Amendment of the United States
Constitution provides, in pertinent part:
Congress shall make no law * * * abridging the
freedom of speech * * * or the right of the people
peaceably to assemble * * *
—————
The Fourteenth Amendment of the United States
Constitution provides, in pertinent part:
* * * No State shall make or enforce any law
which shall abridge the privileges or immunities
of citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
—————
Minnesota Statutes § 203B.081, subd. 1 provides,
in pertinent part:
An eligible voter may vote by absentee ballot
* * * during the 46 days before the election * * *
—————
Minnesota Statutes § 204D.09, subd. 2 provides,
in pertinent part:
At least 46 days before the state primary the
county auditor shall prepare a sample ballot * * *
for public inspection and transmit an electronic

49a
copy of these sample ballots to the secretary of
state. The names of the candidates to be voted for
in the county shall be placed on the sample
ballots * * * The county auditor shall post the
sample ballots in a conspicuous place in the
auditor's office and shall cause them to be
published at least one week before the state
primary in at least one newspaper of general
circulation in the county.
—————
Minnesota Statutes § 207A.12 provides, in
pertinent part:
(a) Except as otherwise provided by law, the
presidential nomination primary must be
conducted, and the results canvassed and
returned, in the manner provided by law for the
state primary.
(b) An individual seeking to vote at the
presidential nomination primary * * * must
request the ballot of the party for whose
candidate the individual wishes to vote. * * *
(d) The results of the presidential nomination
primary must bind the election of delegates in
each party.
—————
Minnesota Statutes § 207A.13, subd. 1 provides,
in pertinent part:
* * * (b) There must be separate ballots for the
names of the candidates of each political party.

50a
***
(c) * * * If requested by a party chair, the
ballot for that party must contain a blank line
printed below the other choices on the ballot so
that a voter may write in the name of a person
who is not listed on the ballot.
—————
Minnesota Statutes § 207A.13, subd. 2 provides,
in pertinent part:
(a) Each party must determine which
candidates are to be placed on the presidential
nomination primary ballot for that party. The
chair of each party must submit to the secretary
of state the names of the candidates to appear on
the ballot for that party no later than 63 days
before the presidential nomination primary. Once
submitted, changes must not be made to the
candidates that will appear on the ballot.
(b) No later than the seventh day before the
presidential nomination primary, the chair of
each party must submit to the secretary of state
the names of write-in candidates, if any, to be
counted for that party.

51a
APPENDIX E: CITATION OF SUPPLEMENTAL
AUTHORITY OF THE PETITIONER (FEBRUARY 26, 2020)
————— ♦ —————
Mohrman, Kaardal & Erickson, P.A.
Attorneys and Counselors at Law
150 South Fifth Street, Suite 3100
Minneapolis, Minnesota 55402
Erick G. Kaardal Telephone: 612/341-1074
Facsimile: 612/341-1076
Writer’s E-Mail: Kaardal@mklaw.com
February 26, 2020
Via E-File
AnnMarie O’Neill, Clerk of Court
Minnesota Supreme Court
25 Rev. Dr. Martin Luther King Jr. Blvd.
305 Minnesota Judicial Center
Saint Paul, MN 55155-6102
Re:

Roque “Rocky” De La Fuente et al. v. Steve
Simon. Appellate Case No. A19-1994

Dear Ms. O’Neill:
Pursuant to Rule 140.01 of the Rules of Civil
Appellate Procedure, a Secretary of State filing
under Minnesota Statutes § 207A.13, subdivision
2(b), by the Republican Party of Minnesota occurred
on February 25, 2020 identifying “Rocky De La
Fuente” and “William (Bill) Weld” as write-in

52a
candidates to be counted in the upcoming March 3,
2020 primary election. The Secretary of State has
electronically stored the document at
“https://officialdocuments.sos.
state.mn.us/Files/GetDocument/122430.” The
February 25, 2020 filing is related to Petitioners’
Brief at pages 1-3, 5-7 and 9-34 and to Petitioners’
oral argument.
Very truly yours,
/s/
Erick G. Kaardal
EGK/mg
cc:
Counsel of Record (via eserve)

53a
APPENDIX F: RESPONDENT'S AFFIDAVIT EXHIBIT D,
PARTIAL REPRODUCTION (JANUARY 2, 2020)
————— ♦ —————

54a

55a

56a

57a
APPENDIX G: PETITION PURSUANT TO MINNESOTA
STATUTES § 204B.44, PARTIAL REPRODUCTION
(DECEMBER 13, 2019)
***
81. Furthermore, Minnesota Statutes §207A.13,
subdivision 2(a) violates the Equal Protection Clause
of the U. S. Constitution. De La Fuente, as a
Republican Party member seeking the Party’s
nomination for president, is treated unfairly as to
access to the Party’s primary election ballot and
differently to the incumbent Donald Trump.
***
97. The Equal Protection Clause guarantees
qualified voters a substantive right to participate
equally with other qualified voters in the electoral
process.
***
103. The Equal Protection Clause protects the
manner in which the franchise (the right to vote) is
exercised. Minnesota may not by arbitrary or
disparate treatment value one person’s vote over that
of another or one class of voters over another.
104. Under Minnesota Statutes §207A.13, Martin
does not know whether his ballot will be counted.
Other similarly situated primary voters, those who
support Trump, who vote absentee, will know that
their absentee ballot will be counted (but for any
challenge not refuted or overcome in the absentee
ballot process).

58a
105. Under Minnesota Statutes §207A.13, the
State advances the different treatment of persons
placed by statute into different classes on the basis of
criteria wholly unrelated to the objective of the
statute.
106. The only purpose of Minnesota Statutes
§207A.13, appears to be to avoid primary elections
where there is a serious contest between serious
candidates.
107. In addition, the absentee ballot process
under Minnesota Statutes §207A.13 creates two
classes of eligible primary election voters—those
knowing their votes will be counted for an already
identified candidate, and those who will not know
whether their vote will ever be counted for an
alternative candidate within the Republican Party.
***
109. Therefore, Martin’s First and Fourteenth
Amendment rights are violated under the current
§207A.13 statutory scheme. Martin is being
deprived, through the absentee ballot process via
§207A.13, of a meaningful opportunity to participate
in the primary process.
110. Martin has no control over the technical
aspects of the §207A.13 statutory scheme concerning
write-in candidates. The valuable rights of Martin as
an absentee ballot participant who wishes to support
a serious Republican Party candidate should not
depend on the pure chance the Party will name De

59a
La Fuente as a write-in candidate seven days before
the presidential primary date of March 3, 2020.
111. Furthermore, the Republican Party Chair’s
omission of all other Republican candidates and
because Minnesota Statutes §207A.13, subdivision
2(a) prohibits any change in the notice to the
Secretary once submitted, will cause the Secretary to
not print those omitted names on the Republican
ballot for the March 3, 2020 presidential primary.
112. Accordingly, Minnesota Statutes §207A.13,
subdivision. 2(a) violates rights guaranteed to
Petitioners under the First and Fourteenth
Amendments to the United States Constitution for
which Petitioners request preliminary and
permanent declaratory and injunctive relief against
Respondent’s continued enforcement of Minnesota
Statutes § 207A.13, subd. 2(a).

